No. 21-241

In the Supreme Court of the United States
MONSANTO COMPANY,
Petitioner,
v.
EDWIN HARDEMAN,
Respondent.

CERTIFICATE OF SERVICE

I, Paul W. Hughes, a member of the Bar of this Court, certify that on this
first day of September, 2021, I caused three copies of this amicus curiae brief on
behalf of the U.S. Chamber of Commerce, the Pharmaceutical Research and
Manufacturers of America (PhRMA), and the American Tort Reform Association
(ATRA) to be served by overnight mail and one copy to be served by electronic
means on the following:
Seth P. Waxman
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue NW
Washington, DC 20006
seth.waxman@wilmerhale.com
David Wool
Andrus Wagstaff, PC
940 N Lincoln Street
Denver, CO 80203
Dwool@wagstafflawfirm.com
I further certify that all parties required to be served have been served.

_______________________
Paul W. Hughes

